No. 19-563

cme

In the Supreme Court of the United States

STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL.,

Petitioners

PATRICK J. COLLINS, ET AL.,
Respondents.

On Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit

CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITATIONS

I, Robert C. Schubert, a member of the Bar of this Court and counsel for
amici curiae Bryndon Fisher, Bruce Reid, and Erick Shipmon, certify that the Brief
of Amici Curiae Bryndon Fisher, Bruce Reid, and Erick Shipmon in Support of
Neither Party in the above-captioned case contains 5,467 words, excluding the parts
of the petition that are exempted by Rule 33.1(d).

Kehoe C Sud

Robert C. Schubert
